Office of Inspector General


November 27, 2013

MEMORANDUM

TO:                  DCHA/DRG, Director, David Yang

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Review of USAID’s New Counter-Trafficking in Persons Program (Report No. 9-
                     000-14-001-S)

This memorandum transmits our final report on the subject review. In finalizing the report, we
considered your comments on the draft version and have included them in their entirety in
Appendix II.

This report contains 11 recommendations to help strengthen the implementation of USAID’s
new counter-trafficking in persons program. In its comments on the draft report, the Center of
Excellence on Democracy, Human Rights, and Governance agreed with all of the report’s
recommendations.

After evaluating management comments on the draft report, we acknowledge management
decisions for all recommendations. Please provide the Audit Performance and Compliance
Division with evidence of final action to close these recommendations.

I want to thank you and your staff for the cooperation and assistance extended to us during this
review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
SUMMARY
In 2000, Congress enacted the Trafficking Victims Protection Act (Public Law No. 106-386) to
combat trafficking in persons. The act and its reauthorizations have promoted prevention,
protection, and prosecution and included specific requirements for U.S. Government
departments and agencies to address trafficking in persons.1

According to Agency staff, for fiscal years 2001 through 2011, USAID programmed more than
$180 million in 68 countries and regional missions for countering trafficking in persons. The
Center of Excellence on Democracy, Human Rights, and Governance (the center), part of
USAID's Bureau for Democracy, Conflict, and Humanitarian Assistance (DCHA), is responsible
for leading the implementation of the Agency's counter-trafficking in persons (C-TIP) program, in
collaboration with missions and Agency operating units that have or plan to program funds for
C-TIP activities.

In February 2011, USAID launched a C-TIP code of conduct.2 The code prohibits employees
from engaging in actions that foster trafficking in persons (TIP) and requires USAID personnel to
report suspected human trafficking cases. The code also requires that each mission designate a
C-TIP coordinator to disseminate TIP-related information and respond to TIP-related inquiries.
The Agency later issued implementing guidance3 and an Agency-wide standard operating
procedure for the code of conduct.4

In February 2012, USAID issued a C-TIP policy incorporating the principles established in the
Trafficking Victims Protection Act and building on the C-TIP code of conduct. The C-TIP policy
contains seven guiding principles that are guided by five programming objectives:

1.   Employ USAID's comparative advantage
2.   Measure impact and bring to scale
3.   Apply selectivity and focus
4.   Develop regional approaches
5.   Promote partnerships
6.   Invest in innovation and technology
7.   Promote high ethical standards

The five programming objectives are:

1. Efforts to combat trafficking integrated into relevant Agency initiatives and programs
2. Improved codification and application of learning in efforts to combat trafficking
3. Enhanced institutional accountability to combat TIP as a result of training and coordination

1
  Trafficking Victims Protection Act 2003 (Public Law No. 108-193) and 2005 (Public Law No. 109-164)
and the William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 (Public Law
No. 110-457).
2
  Agency Notices, USAID Counter Trafficking in Persons Code of Conduct, January 31, 2011.
3
  Guidance on the Implementation of the Counter Trafficking in Persons (C-TIP) Code of Conduct, A
Mandatory Reference for ADS [Automated Directives System] Chapters 201, 203, 302, and 303, July 15,
2011.
4
  Counter-Trafficking in Persons and Contractor/Recipient Compliance: Agency-Wide Standard Operating
Procedure, June 2012.

                                                                                                  1
4. Augmented C-TIP investments in critical trafficking challenge countries
5. Increased investments in TIP prevention and protection in conflict and crisis-affected areas

The timeline below illustrates some of the C-TIP activities.

                              Timeline of USAID C-TIP Activities
          Date                                            C-TIP Activity
February 2011                 Code of conduct issued
July 2011                     Code of conduct implementing guidance issued
February 2012                 Policy launched
June 2012                     Standard operating procedure for contractor/recipient compliance
                              with code of conduct issued
March 2013                    Campus Challenge technology winners announced
April 2013                    Field guide issued
June 2013                     Policy training pilot given at the center annual workshop
August 2013                   Campus Challenge research grants awarded
August 2013                   Annual Review issued
September 2013                Cohost donor dialogue outside the United Nations General
                              Assembly
October 2013                  Implement online training on the code of conduct
October-December 2013         Hold policy training at two regional missions

As of September 2013, the center’s C-TIP team consisted of two staff and a Fellow who joined
the team in May 2013. Mission C-TIP coordinators, regional bureau5 C-TIP advisers, and
functional bureau C-TIP contacts help the center carry out USAID’s C-TIP activities. As required
by the C-TIP policy, DCHA established a steering committee to coordinate C-TIP programming
and oversee policy implementation.

The USAID Office of Inspector General (OIG) conducted this review to determine if the
Agency’s new C-TIP policy provides an appropriate framework to effectively counter TIP.

We found that the policy’s framework encompasses the spirit of the Quadrennial Diplomacy and
Development Review6 and aligns with the operational principles established in USAID’s Policy
Framework for 2011-2015. The USAID Policy Framework and C-TIP policy contain some similar
principles, such as applying selectivity and focus and promoting innovation and the use of
technology. Likewise, the C-TIP policy maps to USAID Forward, the Agency’s reform agenda.

USAID's C-TIP policy is intentionally broad so that its implementation can accommodate the
changing needs of missions and the unique challenges they face. The policy allows Washington
and the missions to tailor C-TIP activities to their specific circumstances.

Additionally, those who drafted the policy drew on results from 10 years of data and Agency
experience working to counter TIP. The policy mentions the Agency’s finding that it had not
invested enough in impact evaluations, surveys, data collection, and other methodologies,
addressing the finding through the application-of-learning programming objective. Through

5
 USAID/Washington regional bureaus are also called geographic bureaus.
6
 Department of State and USAID, Leading Through Civilian Power: The First Quadrennial Diplomacy and
Development Review, 2010.

                                                                                                  2
internal and external meetings, the drafters obtained comments and suggestions from Agency
officials and staff and from other donors. As a result, the policy reflects varied perspectives. The
policy also contains concepts and practices used by others working to combat trafficking.

While USAID’s C-TIP policy aligns with the Agency’s broader strategic plans and objectives,
builds in flexibility, and reflects the experience of those inside and outside the Agency, and
although the center completed work and has important activities under way, USAID faces
challenges in implementing it. From research and interviews with officials in Washington and at
16 missions, we identified the following:

   Coordinators’ roles and responsibilities were unclear (page 5). All of the coordinators we
   spoke to said they had not received information from their mission directors or from the
   center on their specific duties.

   Coordinators said they did not receive training to implement the policy (page 6). None of the
   mission coordinators we spoke to had received training on how to implement aspects of the
   policy other than the code of conduct.

   The center lacked data to monitor policy implementation (page 9). Information was lacking
   on program integration, regional approaches, and coordination with the State Department.

   The center did not establish a process for selecting and funding focus countries (page 11).
   Consequently, not all selected countries met established criteria.

   The policy implementation plan did not establish priorities (page 12). Not prioritizing and not
   factoring in time and effort requirements delayed implementation of some critical policy
   activities.

   The center did not share best practices and resources adequately (page 13). Mission staff
   were unaware of resources that could benefit them.

To address these issues and strengthen implementation of the C-TIP program, we recommend
that the center:

1. In coordination with regional bureau C-TIP advisers and missions, define coordinators’
   specific responsibilities, and communicate them in writing to all mission directors and
   coordinators (page 6).

2. Provide written instructions to coordinators on how to carry out the requirements in the
   implementing guidance for the code of conduct (page 6).

3. Determine mission coordinators’ training needs, and implement a training plan that
   addresses them (page 8).

4. In close collaboration with bureau C-TIP advisers and contacts, provide to mission
   coordinators, technical officers, and other staff available tools on integrating programs and
   conducting impact evaluations, and document having done so (page 8).




                                                                                                  3
5. In close collaboration with bureau C-TIP advisers and contacts and gender advisers,
   determine the viability of using alternative methods to implement the policy, and document
   the results (page 9).

6. Determine the benefits of conducting briefings for mission directors and program staff to
   obtain their support, increase their awareness, and emphasize critical aspects of the policy,
   and document the results (page 9).

7. Determine its information needs, and in close collaboration with Policy, Planning, and
   Learning, ask the Streamlining Governance Committee about the applicability of the limit on
   data calls, and document the results (page 10).

8. If the Streamlining Governance Committee does not allow data calls, in close collaboration
   with Policy, Planning, and Learning, devise alternative methods for obtaining the information
   it needs from missions to monitor implementation of the policy. This includes soliciting input
   from the Streamlining Governance Committee on whether regional bureau C-TIP advisers
   and mission coordinators can provide data, and documenting the results (page 10).

9. Implement a documented process for identifying, funding, and periodically reassessing
   critical trafficking in persons challenge countries and conflict and crisis-affected countries
   (page 12).

10. Establish and formalize its priorities and time frames for implementing the C-TIP policy,
    while considering missions’ future activities and needs (page 13).

11. Implement a mechanism to share information, tools, and best practices with all missions
   (page 14).

Detailed findings follow. The review’s scope and methodology are described in Appendix I.
Management comments appear in their entirety in Appendix II, and our evaluation of them is on
page 15.




                                                                                               4
REVIEW RESULTS
Coordinators’ Roles and
Responsibilities Were Unclear

According to the Government Accountability Office’s Standards for Internal Control in the
Federal Government and USAID’s Automated Directives System (ADS Chapter 596,
“Management’s Responsibility for Internal Control”), managers should identify and define the
tasks required to accomplish particular jobs and fill various positions. The C-TIP code of
conduct requires all missions to have a C-TIP coordinator to serve as the primary point of
contact on human trafficking issues. The code’s implementing guidance states that, at a
minimum, coordinators are responsible for disseminating TIP information and responding to TIP
inquiries. The implementing guidance also suggests additional responsibilities that coordinators
may be involved in, such as training mission staff, developing a mission TIP strategy, and
helping technical officers integrate C-TIP activities into programs. Despite this, guidance on
coordinators’ roles and responsibilities was inadequate.

Mission C-TIP coordinators7 were performing a variety of activities. For example, coordinators
told us they acted as the mission point of contact for C-TIP, responded to inquiries, provided
training to mission staff, developed mission C-TIP strategy, managed the mission’s C-TIP
program, integrated C-TIP into mission programming, shared C-TIP information with
implementing partners, coordinated with the State Department, and communicated with other
donors. The number of activities varied among coordinators. One coordinator’s C-TIP work was
limited to coordinating with the State Department, while another coordinator presented on C-TIP
at conferences, worked with contracting officers, participated in working groups with other
donors, and helped project managers integrate C-TIP.

When we asked the coordinators if they had received information from their mission directors or
from the center on their specific duties, all of them said no. Moreover, an OIG audit8 at one
mission found that the C-TIP coordinator was uncertain whether she should share the field
guide (issued in April 2013 and containing information on the policy, integrating C-TIP in
programming, and conducting evaluations) with the mission’s implementing partners. Further, at
least nine missions selected staff to be coordinators in response to, or around the time of, our
request for interviews. Of these newly designated coordinators, not all were aware of the policy
or the code of conduct, and none had received information on their responsibilities.

Center staff recognized the need for better guidance on the role of the C-TIP coordinators.
Although they had discussed this issue, the center had not issued guidance on mission
coordinators’ work activities. Center officials also had not decided whether all missions should
have coordinators and were considering modifying the requirement in the implementing
guidance for the code of conduct to allow greater flexibility. Further, center staff told us that
while they are responsible for leading the implementation of the policy, they do not have the


7
  These individuals are also sometimes referred to as C-TIP contacts and C-TIP champions. In this report,
we refer to them as C-TIP coordinators.
8
  Audit of USAID/Guatemala’s Multi-Sector Alliances Program, Report No. 1-520-14-002-P, November 26,
2013.

                                                                                                       5
authority to direct mission coordinators to perform specific tasks or to enforce the missions’
implementation of the policy.

Since the center has not provided guidance or direction to the missions on the roles and
responsibilities of mission C-TIP coordinators, coordinators must determine their own duties.
The center is missing opportunities to use coordinators as a tool to help implement the C-TIP
policy.

   Recommendation 1. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance, in coordination with regional bureau counter-trafficking
   in persons advisers and missions, define coordinators’ specific responsibilities, and
   communicate them in writing to all mission directors and coordinators.

   Recommendation 2. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance provide written instructions to coordinators on how to
   carry out the requirements in the implementing guidance for the code of conduct.

Coordinators Said They Did Not
Receive Training to Implement
the Policy
According to Standards for Internal Control in the Federal Government and ADS Chapter 596,
managers should provide their employees orientation, training, and tools to perform their duties
and responsibilities, improve their performance, enhance their capabilities, and meet the
demands of changing organizational needs. The code of conduct’s implementing guidance
delegates responsibility for training Agency staff on the code’s requirements to the Office of
General Counsel and to regional legal advisors, who were instructed to cover human trafficking
in annual ethics training.

The center has conducted training on the C-TIP code of conduct during orientations for new
Civil Service and Foreign Service employees. The center also plans to develop an online course
that would cover the C-TIP code of conduct, and according to the center staff, would replace the
in-person new employee orientations.

Training has primarily focused on the code of conduct, but in June 2013 at its annual workshop,
the center conducted a pilot training course on other aspects of C-TIP policy implementation.
The course, offered to center personnel, as well as mission staff, covered topics such as
building partnerships, integrating programs, and using effective monitoring and evaluation
techniques. It provided information on key concepts, major forms of trafficking, causes of
trafficking, and strategies for combating TIP. Representatives from the Departments of State,
Labor, and Justice also presented on their agencies’ activities. Center officials said they planned
to administer this training course to mission staff in two regions by the end of 2013.

Noncenter staff have included C-TIP in their presentations on gender and ethics. For example,
the presentation by one bureau official on gender included a slide on the C-TIP policy’s seven
guiding principles and a slide on the code of conduct. One regional bureau C-TIP adviser gave
a gender presentation that incorporated C-TIP throughout. And 11 mission coordinators told us
that during the annual ethics training their regional legal advisors provided information on the C-
TIP code of conduct.


                                                                                                 6
However, none of the 16 mission coordinators we spoke to had received training on how to
implement aspects of the policy other than the code of conduct. Further, coordinators said they
wanted training in other areas:

    Coordinator responsibilities. While conducting a previous audit, OIG found that the C-TIP
    coordinator had not received training on how to do her work. When we followed up with the
    coordinator approximately a year later for this review, she said she still had not received
    training on her responsibilities although the center knew about the situation. Other
    coordinators told us they, too, needed training on how to perform their role.

    Training of implementing partners. Coordinators provided various responses as to who was
    responsible for training implementing partners on the code of conduct. Five mission
    coordinators said they were not responsible for training implementing partners, and three
    coordinators said they were partially responsible. Center and other USAID staff said they
    believed missions were responsible for training implementing partners, although the specific
    mission staff responsible varied. Additionally, five coordinators said that if they were
    responsible for training mission staff and implementing partners on C-TIP, they would like
    train-the-trainers instruction. In the previously mentioned OIG audit, implementing partners
    did not receive copies of the field guide from the mission coordinator when the field guide
    was issued. However, in response to the audit, the mission issued the field guide, along with
    the C-TIP policy and code of conduct implementing guidance, to all of its implementing
    partners. Another OIG audit found that implementing partners working with commercial sex
    workers were not trained to assist victims of trafficking they encountered in their work.9

    Program integration. Whereas nine mission coordinators said they had no experience, three
    said they were knowledgeable about program integration and either had already integrated
    C-TIP into programs or felt comfortable with the prospect. The C-TIP field guide provides
    guidance on integrating C-TIP into missions’ Country Development Cooperation Strategies
    and programming cycles. It also gives examples of integrating C-TIP activities, with
    programs such as food security, economic growth, education, health, democracy and
    governance, and environment. However, seven coordinators were not aware the field guide
    existed, and eight said they would like additional training on how to integrate C-TIP into their
    program portfolios.

    Program evaluation. Five coordinators said they would like additional training on how to
    conduct evaluations of their C-TIP programs. The C-TIP field guide provides some
    information, guidance, and resources on evaluations. However, as previously mentioned,
    not all coordinators knew of the field guide. Most coordinators we contacted that had C-TIP
    programming at their mission, either stand-alone or integrated, had not conducted C-TIP
    impact evaluations. A provision in the C-TIP policy is that the center will support missions by
    funding and providing technical assistance to improve monitoring and evaluation. Some
    mission coordinators indicated they would like center assistance and funding in this area.
    Center staff said that C-TIP impact evaluations were time-consuming, costly, and
    challenging to design and that center staff were beginning an evaluation in 2014.

Mission coordinators told us they would also like training in identifying victims, training program
officers on implementing the policy, familiarizing people with the policy, and implementing and
applying the field guide.
9
 Audit of USAID/Barbados’ Eastern Caribbean Community Action Project, Report No. 1-534-12-006-P,
August 17, 2012.

                                                                                                  7
Mission coordinators and regional bureau C-TIP advisers made other helpful suggestions. For
example, they felt that the center should offer:

   Not one-time but annual training, given turnover of mission staff

   Web-based, video teleconference, or teleconference training, including a Webinar of the
   center’s C-TIP training; interactive video teleconference or teleconference; and on-demand,
   Web-based training

   C-TIP training integrated into gender and ethics trainings

   Targeted trainings for the missions most affected by TIP

   Help with research for impact evaluations

Further, coordinators said management and technical officer support for integration would be
helpful. They suggested that the center could promote integrated programs by presenting at
briefings for program officers and mission directors. Some coordinators said that doing so might
heighten the importance of the policy and result in increased mission directors’ support for C-
TIP programming. Regional bureau C-TIP advisers could also be a resource to the center by
giving missions suggestions on how to integrate programs. One mission coordinator told us that
the regional bureau gender adviser, who also happens to be the regional bureau C-TIP adviser,
assisted the mission with integrating gender issues into the mission’s portfolio of work.

Center staff recognized the need for training and, as previously mentioned, presented a pilot
training course on C-TIP at the annual center workshop. Additionally, center staff said they also
helped one mission integrate C-TIP into its portfolio of work. Center staff told us that after the
policy launched, they were unable to spend as much time as they wanted to developing and
delivering training and other materials because the center’s Campus Challenge, a contest for
students and research competition for scholars to increase TIP awareness, took priority.

Successful and effective implementation of the policy depends in part on missions’ actions.
Training mission coordinators and staff would help combat TIP by increasing the number of
coordinators prepared to identify and assist trafficking victims, integrating C-TIP activities into
mission programs, and making it possible to determine the effectiveness of Agency efforts
through evaluations. Lack of training and instruction hinders those efforts, as well as missions’
abilities to use implementing partners to identify and assist victims of trafficking.

   Recommendation 3. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance determine mission coordinators’ training needs and
   implement a training plan that addresses them.

   Recommendation 4. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance, in close collaboration with bureau counter-trafficking in
   persons advisers and contacts, provide to mission coordinators, technical officers, and
   other staff available tools on integrating programs and conducting impact evaluations,
   and document having done so.



                                                                                                 8
   Recommendation 5. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance, in close collaboration with bureau counter-trafficking in
   persons advisers and contacts and gender advisers, determine the viability of using
   alternative methods to implement the policy, and document the results.

   Recommendation 6. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance determine the benefits of conducting briefings for
   mission directors and program staff to obtain their support, increase their awareness,
   and emphasize critical aspects of the policy, and document the results.

The Center Lacked Data to Monitor
Policy Implementation
According to Standards for Internal Control in the Federal Government and ADS Chapter 596,
information should be recorded and communicated to those within the Agency that need it and
an entity must have relevant, reliable, and timely communications about its activities between
individuals and units within an organization. The C-TIP policy requires the center to
communicate the results of the Agency’s C-TIP efforts to external stakeholders through the
Annual Review, which summarizes USAID C-TIP programming.

As the entity responsible for leading the implementation of the C-TIP policy, the center does not
have the information it needs about missions’ activities in areas such as program integration,
regional approaches, and coordination with the State Department.

Program Integration. One of the policy’s programming objectives is to integrate C-TIP activities
into programs to more effectively prevent trafficking and protect victims. The policy specifies that
the center will closely monitor leveraged investments in program integration. Further, many of
the metrics in the center’s implementation plan require data from missions—for example, the
number of countries with integrated programs, a list of sectors that have integrated C-TIP, and
the results of these activities.

Yet center staff did not know how many missions had integrated programs. Center staff told us
that four missions had integrated programs, but our interviews disclosed nine. Because we
obtained information from only 16 missions, it is likely that the number of integrated programs is
greater than 9. Center staff said the four integrated programs represented the ones they knew
of and acknowledged there might be others.

Regional Approaches. The policy emphasizes developing regional approaches to combat
cross-border trafficking and influence both source and destination countries. The
implementation plan calls for reporting a list of regional C-TIP programs, key results, and the
number of regional conversations taking place among missions. The center, however, does not
have this information. Moreover, some mission coordinators said they would like more
information, best practices, or both for implementing regional approaches. One mission
coordinator said she had trouble gaining cooperation from a neighboring mission and would like
assistance with or examples of how to start coordination.

Coordination With the State Department. One of the policy’s principles is to capitalize on
USAID’s comparative advantage by increasing collaboration with interagency partners,
particularly the State Department. The State Department’s Office to Combat and Monitor
Trafficking in Persons awards grants for C-TIP. A metric in the center’s implementation plan is

                                                                                                  9
to track the number of missions participating in the grant proposal process. Twelve missions we
contacted were participating in the State Department’s grant proposal process or collaborating
with in-country State Department colleagues. However, three mission coordinators told us that
their missions were having difficulty cooperating with the State Department on C-TIP issues and
would like assistance from Washington. The center has no mechanism for capturing or reporting
on this information, or sharing best practices.

According to center staff, one reason they do not have enough information is that an Agency
policy limits the number of times Washington can request data from the field. Certain requests
for information from missions have to be approved by the State-USAID Streamlining
Governance Committee. The center made one request for mission C-TIP information prior to the
policy launch and was denied; staff have not attempted another request. One exception is for
the State Department’s Trafficking in Persons annual report, for which the center is responsible
for collecting Agency C-TIP programming information. For it, the center submits its request to
missions through regional bureau C-TIP advisers. Center staff told us that a possible
explanation for the exception is that Congress requires the information to be given to the State
Department. Center staff were not sure whether using regional bureau C-TIP advisers and
mission C-TIP coordinators to obtain mission information would require the Streamlining
Governance Committee’s approval.

A second reason the center lacks information is that it does not have a system to collect the
data. Similarly, C-TIP advisers do not have systems to track information about missions’
activities. Center staff felt they lacked authority to require missions to implement a tracking
system.

The inability to access information on missions’ implementation activities hinders the center
from determining whether the policy is effective or determining and reporting on the true extent
of implementation. Further, the lack of systems to obtain data hampers the Agency’s ability to
track missions’ compliance with policy requirements and take corrective actions if needed.

Access to relevant, reliable, and timely information would assist the center in monitoring
missions’ work, providing assistance, and making adjustments as necessary. Tracking missions’
and its own activities would help the center meet the annual requirement to report a complete
and accurate picture of the work accomplished.

   Recommendation 7. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance determine its information needs, and in close
   collaboration with Policy, Planning, and Learning, ask the Streamlining Governance
   Committee about the applicability of the limit on data calls, and document the results.

   Recommendation 8. We recommend that, if the Streamlining Governance Committee
   does not allow the data calls, the Center of Excellence on Democracy, Human Rights,
   and Governance, in close collaboration with Policy, Planning, and Learning, devise
   alternative methods for obtaining the information it needs from missions to monitor
   implementation of the policy. This includes soliciting input from the Streamlining
   Governance Committee on whether regional bureau C-TIP advisers and mission
   coordinators can provide data, and documenting the results.




                                                                                             10
The Center Did Not Establish a
Process for Selecting and Funding
Focus Countries
Standards for Internal Control in the Federal Government and ADS Chapter 596 state that
control activities, including processes, “are an integral part of an entity’s planning, implementing,
reviewing, and accountability for . . . achieving effective results,” and these actions should be
ongoing.

While the C-TIP policy establishes criteria for identifying critical TIP challenge countries and
conflict and crisis-affected countries, the center did not establish a process for selecting and
funding these countries.

Critical TIP Challenge Countries. The policy defines critical TIP challenge countries as those
that possess “global strategic importance and significant trafficking problems,” have
governments that have “done little to prevent or combat TIP,” and have appeared for multiple
years on the State Department’s Tier 3 or Tier 2 Watch List.10 The selected countries are
intended to receive increased investments from DCHA.

The center identified three critical TIP challenge countries. However, they did not all meet the
established criteria.

Conflict and Crisis-Affected Countries. The Agency directs extra funding to missions in conflict
and crisis-affected countries. The funding supports training and technical assistance so that the
missions can design, implement, monitor, and evaluate C-TIP programs and develop train-the-
trainer materials to educate civilian contractors and aid workers. The C-TIP policy defines conflict
and crisis-affected countries as having “significant U.S. Government investment,” having
international deployments involving more than 10,000 people and lasting multiple years, and
providing “opportunities to build partnerships with other donors or stakeholders.” The policy also
indicates that selection will be part of USAID’s implementation of the 2011 United States National
Action Plan on Women, Peace, and Security.

However, one of the conflict and crisis-affected countries that center staff told us they are
providing funding to did not meet all the criteria in the policy, such as a substantial number of
international, deployed personnel. Further, the center staff had no methodology for setting the
funding amount or reassessing countries’ eligibility. The funding received and the center’s
involvement varied from country to country. One mission C-TIP coordinator was unaware that
her mission had received funds for being a conflict and crisis-affected country. Additionally,
center staff had not yet developed a package of train-the-trainer materials for C-TIP
coordinators in affected countries, as required by the policy.

Center staff use a spreadsheet with the State Department tier rankings and countries listed in
USAID’s Implementation of the United States National Action Plan on Women, Peace, and
Security to facilitate discussions that precede selection. Center officials said their selections

10
   The State Department’s annual Trafficking in Persons Report ranks countries’ commitment to counter
TIP. Tier 1 countries comply with the Trafficking Victims Protection Act; Tier 2 countries do not comply
with all the act’s standards but are making progress toward compliance; and Tier 3 countries do not
comply and are not trying to. Countries on the Tier 2 Watch List are stagnating or slowing in terms of
efforts to comply and have a growing or very significant population of TIP victims.

                                                                                                     11
consider factors such as prior center funding, prior mission programming, and timing of mission
C-TIP activities; however, these factors are not included in the spreadsheet. Center staff said
most conversations about critical TIP challenge and conflict and crisis-affected areas are
internal because countries do not want to be labeled as challenge or crisis countries, tier
rankings fluctuate, and the topic is sensitive in nature. However, we do not believe this rationale
precludes the Agency from having a documented selection process, even if that process is
internal.

The lack of a formal process for identifying, selecting, and reassessing critical TIP challenge
and conflict and crisis-affected countries impedes the Agency’s ability to prioritize investments
and make the greatest possible impact. Furthermore, without funding procedures, the center is
unable to tell missions how much is available or how they can determine their eligibility for
funding as critical TIP challenge countries or conflict and crisis-affected countries.

     Recommendation 9. We recommend that the Center of Excellence on Democracy,
     Human Rights, and Governance implement a documented process for identifying,
     funding, and periodically reassessing critical trafficking in persons challenge countries
     and conflict and crisis-affected countries.

The Policy Implementation Plan Did
Not Establish Priorities
According to project management best practices,11 proper control of time requires the careful
identification of tasks to be performed, an accurate estimation of their durations, the sequence
in which they are to be done, and how people and resources are allocated. Additionally, one of
management’s functions is to see that activities are carried out in relation to their importance.12

Mission and bureau staff expressed concern over the number of cross-cutting policies they are
required to implement and integrate into programming. Additionally, Agency and mission staff
told us that the C-TIP policy contains many commitments for both the center and the missions.
For example, the objective on application of learning has multiple requirements for the center,
primarily related to monitoring and evaluation and identifying and communicating best practices.

The center’s policy implementation plan lists the actions required by the Agency, regional
bureaus, missions, and others, but it does not assign priorities to any of the activities. Further,
the latest version of the implementation plan was dated May 2012, and it had not been updated
since. The center developed priorities matrices covering certain periods from August 2012
through December 2013, but the matrices are imperfect. They are limited to Washington-based
activities and mission activities funded by the center, and even then, they exclude most mission
activities and many Washington activities. For example, the implementation plan calls for
convening with the C-TIP community and State Department officials to share information and
identify gaps and opportunities. This activity is missing from the priorities matrices. Additionally,
there is no consistent process for updating them.




11
   PM4DEV, Project Management for Development Organizations, Fundamentals of Project Management
                                nd
for Development Organizations, 2 edition, 2009.
12
    H. Kerzner, Project Management: A Systems Approach to Planning, Scheduling, and Controlling,
 th
9 edition, 2006.

                                                                                                  12
Further, the implementation plan does not take into account the level of effort required for
certain C-TIP activities or their impact on other activities. For example, the Campus Challenge,
which supports the policy’s guiding principle to invest in innovation and technology, was
announced in March 2012, and the winning concepts for the first phase were announced a year
later. Center staff told us that this activity took significant time, in part because of the learning
curve. Staff had not previously organized or managed this type of program before, and the
process had multiple steps and time-sensitive tasks, such as conducting university briefings to
coordinate with the USAID Administrator’s campus tour. The implementation plan, including
time frames, was not updated when the Campus Challenge was taking the majority of staff time.
Another potential project not in the plan, but that would require significant staff resources if it
came to fruition, is the Grand Challenge for Development, an Agency initiative to address
challenges using science and technology. While center officials and staff have considered
staffing for this new project, they have not sufficiently assessed its impact on other activities in
the implementation plan.

Center staff said they do not heavily use the implementation plan. They said its intended
purpose was to gain stakeholder consensus, rather than be a tool for establishing priorities.

Because the center did not prioritize implementation plan activities, policy implementation was
slower than initially anticipated. A number of critical activities in the implementation plan were
not completed on time. Releasing a training knowledge and needs survey, releasing the Annual
Review, and developing online training—which had deadlines of May, July, and October 2012,
respectively—did not take place on time. With the Grand Challenge for Development looming
and limited staff, timely implementation of C-TIP policy activities is not certain.

     Recommendation 10. We recommend that the Center of Excellence on Democracy,
     Human Rights, and Governance establish and formalize its priorities and time frames for
     implementing the Counter-Trafficking in Persons Policy, while considering missions’
     future activities and needs.

The Center Did Not Share Best
Practices and Resources Adequately
Reference materials on project management emphasize documenting lessons learned to
capture and retain best practices. One way organizations can maintain and transfer knowledge
to employees is through a best practices library.13 Additionally, USAID’s policy on assessing and
learning states that continuous learning is needed to achieve development results and to ensure
accountability for the resources used to achieve the results.14 Nine mission coordinators said
that it would be helpful if the center provided examples of other missions’ C-TIP activities or
shared information on best practices.

U.S. Government agencies, international organizations, and nongovernmental organizations
have published and used C-TIP reports, tools, and training that the center staff had not shared
with missions. These included reports on best practices, online training, resources for service
providers, and tools for individuals in positions to identify trafficking victims.


13
   PM4DEV, Project Management for Development Organizations, Fundamentals of Project Management
                                nd
for Development Organizations, 2 edition, 2009.
14
  ADS Chapter 203, “Assessing and Learning,” November 2, 2012.

                                                                                                  13
Moreover, mission staff were not aware of internal resources that could benefit them. As
previously mentioned, some mission coordinators did not know of the C-TIP field guide issued
by the center. Further, attendees at the C-TIP pilot training were not aware that USAID has an
office that assists other Agency components in establishing partnerships with the private sector
(Office of Innovation and Development Alliances) or that the center had a C-TIP video they
could show in their missions. Lastly, nine mission coordinators said they did not know they had
regional bureau C-TIP advisers or that the center’s C-TIP team existed.

In particular, center staff have not taken advantage of people in their office who serve as
information channels. For example, the center could better use its cross-sectoral programs
team, which specializes in integrating democracy and governance issues into Agency programs,
and the geographical and country-specific backstops that work directly with missions. These
individuals are uniquely placed to capitalize on existing resources and promote awareness of
the policy and C-TIP integration.

Resources and best practices were not adequately shared because other C-TIP activities took
priority over conducting training, disseminating information to missions, and making information
available within DCHA.

The lack of communicating information among missions, regional bureaus, and the center
results in missions being unaware of the policy, field guide, tools, resources, and best practices.
Without communication and awareness, missions will not be able to implement the policy
effectively.

   Recommendation 11. We recommend that the Center of Excellence on Democracy,
   Human Rights, and Governance implement a mechanism to share information, tools,
   and best practices with all missions.




                                                                                                14
EVALUATION OF MANAGEMENT
COMMENTS
In their comments on the draft report, center officials agreed with all 11 recommendations, and
we acknowledge management decisions on all of them, as described below.

Recommendation 1. Center officials agreed with the recommendation. Center officials said
they had drafted responsibilities for C-TIP coordinators and were in the process of soliciting
feedback on them from regional bureau C-TIP advisers. Center officials made a management
decision to establish coordinators’ responsibilities and communicate them to mission directors
and C-TIP coordinators by the end of January 2014.

Recommendation 2. Center officials agreed with the recommendation. Center officials made a
management decision to work with regional bureau C-TIP advisers to communicate written
instructions to C-TIP coordinators on carrying out the requirements for implementing the code of
conduct. Coordinators can then work with mission directors to inform staff. Center officials
expect to complete this by February 2014.

Recommendation 3. Center officials agreed with the recommendation. They made a
management decision to create a strategic training plan for the C-TIP policy and code of
conduct and were considering utilizing a tool to assess the training needs of C-TIP coordinators.
The target date for completion is October 2014.

Recommendation 4. Center officials agreed with the recommendation. They said they would
develop new tools and made a management decision to make new and existing tools available
to staff on an internal Web site by September 2014.

Recommendation 5. Center officials agreed with the recommendation and made a
management decision to work with regional bureau C-TIP advisers to define their roles and
responsibilities in implementing the policy by March 2014. Additionally, center officials said that
they would meet monthly with regional bureau C-TIP advisers and gender advisers to
strengthen their participation in implementing the policy and coordinating Agency-wide C-TIP
efforts.

Recommendation 6. Center officials agreed with the recommendation and that senior-level
mission support was an important factor in effectively implementing the policy. They made a
management decision to consider other communication methods, such as mission conference
calls and Webinars, and will engage mission directors and staff in at least five countries by the
end of March 2014.

Recommendation 7. Center officials agreed with the recommendation and they made a
management decision to ask the Streamlining Governance Committee by June 2014 to include
additional fields in the data call.

Recommendation 8. Center officials agreed with the recommendation and made a
management decision that as needed, they will consider additional ways to get the information
they need to monitor policy implementation. They will solicit input from the Streamlining


                                                                                                15
Governance Committee on whether regional bureau C-TIP advisers and mission coordinators
can provide data. Center officials expect to complete this action by June 2014.

Recommendation 9. Center officials agreed with the recommendation. They will work with
regional bureau C-TIP advisers, missions, and the State Department to identify a process to
select and periodically reassess priority countries, including critical TIP challenge and conflict
and crisis-affected countries. Center officials made a management decision to establish a
process to identify, fund, and reassess priority countries and the target date is April 2014.

Recommendation 10. Center officials agreed with the recommendation and made a
management decision to revisit the initial implementation plan and make adjustments to the time
frames and actions as necessary to reflect planned and completed work. Center officials said
that they will regularly review resource allocation and adjust the implementation plan
appropriately. The target date for completion is January 2014.

Recommendation 11. Center officials agreed with the recommendation. They made a
management decision to implement a mechanism to share information, tools, and best practices
with missions by October 2014.




                                                                                               16
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this review in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency.

The objective of the review was to determine if the Agency’s new C-TIP policy provides an
appropriate framework to effectively counter TIP.

The scope of the review covered C-TIP activities from the time of policy development, February
2012 through August 2013. OIG performed fieldwork from June 5 to September 10, 2013. The
Performance Audits Division managed the review and conducted the fieldwork in
Washington, D.C.

Methodology
To address our objective, we conducted interviews with center staff about the development and
implementation of the C-TIP policy and the center’s C-TIP activities. We reviewed the
Quadrennial Diplomacy and Development Review, USAID's Policy Framework for 2011-2015,
and the USAID Forward policy document for alignment with USAID's C-TIP policy. We
performed a physical observation to confirm that center staff received comments on the draft
policy from internal stakeholders, and we reviewed notes taken at a listening session on the
policy that reflected comments from external parties. We also researched and when available,
compared C-TIP policies, strategies, and related documents created by other federal
government agencies, nongovernmental organizations, and international organizations with the
Agency's C-TIP policy.

We reviewed the center’s policy implementation plan and priorities matrices and obtained
supporting documentation on completed C-TIP activities. We also interviewed center staff on
their method for identifying, selecting, and funding critical TIP challenge countries and conflict
and crisis-affected countries and analyzed the spreadsheet they used to assist in selection.

We also conducted interviews with regional bureau C-TIP advisers and functional bureau C-TIP
contacts about policy development and bureau and mission C-TIP activities. We conducted
semi-structured interviews with select mission C-TIP coordinators to obtain information about
policy development, C-TIP coordinator activities, missions’ C-TIP activities, and missions’ policy
implementation. We did not obtain documentation or otherwise verify information provided by
bureau or mission staff in their interviews.

We made a judgmental selection of missions to interview. Our methodology for selecting them
took into account the amount of mission C-TIP funding for fiscal years 2001-2011, missions with
integrated C-TIP programs as identified by the center, tier ranking of the host country in the
State Department’s 2013 TIP report, and location. We also selected our sample to include both
missions that had C-TIP coordinators and missions that did not, based on the center’s
November 2012 list—the most current list available when we made our selection. We did not



                                                                                               17
                                                                                     Appendix I


use a statistical sample because we did not need to project to the entire population; therefore,
the results of the mission interviews cannot be extrapolated to the entire universe of missions.

The following 17 missions were selected as part of our review. We were unable to interview one
mission C-TIP coordinator because the coordinator was on an extended temporary assignment
and no alternate coordinator was designated. We conducted our interviews via teleconference,
except in two cases: we interviewed coordinators for two missions in Washington, D.C.

                                Missions Included in Our Review
                            1     Albania
                            2     Bangladesh
                            3     Barbados
                            4     Brazil
                            5     Cambodia
                            6     Democratic Republic of the Congo
                            7     Haiti
                            8     Mauritania
                            9     Mexico
                           10     Mozambique
                           11     Namibia
                           12     Peru
                           13     Senegal
                           14     Sri Lanka
                           15     Sudan
                           16     Ukraine
                           17     Yemen

Beyond interviewing the 16 coordinators available at selected missions, we reviewed
documentation from a previous OIG audit and interviewed a C-TIP coordinator from another
mission who had not received training on her C-TIP duties. We also spoke with a Regional
Inspector General audit team that found a mission coordinator from yet another mission was
unaware of her duties.




                                                                                             18
                                                                                     Appendix II



MANAGEMENT COMMENTS


November 12, 2013

MEMORANDUM

TO:           Steven Ramonas, IG/A/PA Director

FROM:         David Yang, DCHA/DRG Director

SUBJECT:      Review of USAID’s New Counter-Trafficking in Persons Program (Report No.
              9--000--14--00X--S)

The Center of Excellence on Democracy, Human Rights and Governance (the DRG Center)
appreciates the opportunity to provide comments on the Office of Inspector General (OIG) draft
report, “Review of USAID’s New Counter-Trafficking in Persons Program.” Eighteen months
after the release of the policy, the DRG Center is overall pleased with the accomplishments in
implementing the policy to date, such as releasing the field guide, convening an Agency-wide
steering committee, providing training to over 500 staff on C-TIP through civil- and foreign-
service new employee orientations, conducting a 2-day C-TIP training for mission and
Washington-based staff at the annual DRG Center workshop, preparing for the implementation
of innovative CTIP surveys and impact evaluations, and completing the Challenge Slavery Tech
Challenge and Research Competition. We recognize that more work remains to be done in
implementing the policy, and we look forward to advancing critical actions in the coming
months.

Please find below our responses to each of the OIG’s recommendations.

Recommendation 1. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance, in coordination with regional bureau counter-trafficking in persons
advisers and missions, define coordinators’ specific responsibilities and communicate them in
writing to all mission directors and coordinators.

       Response: We concur with this recommendation. DCHA/DRG has drafted a list defining
       C-TIP Coordinators’ specific responsibilities and is in the process of getting feedback on
       this list from Regional Bureau C-TIP advisers. In collaboration with Regional Bureau
       colleagues, DCHA will develop a plan for communicating the list to mission directors
       and C-TIP coordinators. At the next C-TIP Steering Committee meeting, DCHA will
       seek support from Regional Bureau leadership to communicate to Mission Directors and

                                                                                                19
                                                                                     Appendix II


       C-TIP coordinators the importance of fulfilling the duties on the list. Our goal is to
       establish the coordinators’ duties and implement the communication plan by the end of
       January 2014. The DRG Center is engaging the DRG Sector Council on best approaches
       to further elevate this issue as well.

Recommendation 2. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance provide written instructions to coordinators on how to carry out the
requirements in the implementing guidance for the code of conduct.

   ● Response: We agree with this recommendation and emphasize that to be successful we
     will need to collaborate with Regional Bureau C-TIP advisers and leadership. In June,
     the former Deputy Administrator emailed Mission Directors to request that they brief
     their staff on the C-TIP Code of Conduct and indicated that additional ideas for fulfilling
     the requirements in the Code of Conduct Implementation Guidance would be
     forthcoming. The DRG Center, in coordination with Regional Bureau C-TIP Advisers,
     will communicate these written instructions to C-TIP Coordinators, who can then work
     with Mission Directors to adequately inform staff. Our goal is to complete this
     assignment by the end of February 2014.

Recommendation 3. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance determine mission coordinators’ training needs and implement a
training plan that addresses them.

   ● Response: We concur with this recommendation. To implement the policy, the DRG
     Center has trained over 500 staff on C-TIP through civil- and foreign-service new
     employee orientations and conducted a 2-day C-TIP training for Mission and
     Washington-based staff at the annual DRG Center workshop. We also provided the
     General Counsel’s Office with C-TIP training information and requested that Regional
     Legal Advisors in the field include this information in their mandatory ethics training.
     This year DRG will train field officers from 13 Missions in Asia on the C-TIP Policy and
     Code of Conduct as part of a DRG-led learning clinic in Bangkok in November 2013.

   ● The DRG Center will create a strategic training plan to provide knowledge and tools to
     Mission Coordinators to implement the C-TIP Policy and Code of Conduct. The plan
     will be based on realistic training outcomes achievable by the two Full-time Equivalent
     (FTE) DRG Center C-TIP staff. The plan will include the completion of the online
     training course by the end of the year and (utilizing the training modules already created)
     additional regional trainings and train-the-trainers seminars. The team will prioritize
     outreach efforts to select audiences such as C-TIP Coordinators, DRG officers, and
     program officers; and will track participation quarterly. The C-TIP team will consider
     the utility of employing a survey to assess the training needs of mission coordinators.



                                                                                              20
                                                                                     Appendix II


       While training will be an ongoing priority, the work stated above can be completed by
       October 2014.

Recommendation 4. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance, in close collaboration with bureau counter-trafficking in persons
advisers and contacts, provide to mission coordinators, technical officers, and other staff
available tools on integrating programs and conducting impact evaluations, and document
having done so.

   ● Response: We concur with this recommendation. In close collaboration with Regional
     and Pillar Bureau C-TIP Advisers, the DRG Center will strategically develop new tools
     on integration and evaluation that build on those we have already provided, including the
     Field Guide. For example, the DRG Center is currently providing tools and technical
     assistance to the Bangladesh Mission on how to build an impact evaluation into the
     design of a new C-TIP activity. The tools will include, among others, examples of C-TIP
     surveys, integrated programs, and impact evaluations (when available); and will be
     posted on an internal web site for sharing purposes. The DRG Center will also
     communicate C-TIP research and integration guidance to coordinators through regular
     emails using our C-TIP Champions listserves. Our goal is establish an internal site with
     research and integration tools by September 2014.

Recommendation 5. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance, in close collaboration with bureau counter-trafficking in persons
advisers and contacts and gender advisers, determine the viability of using alternative methods
to implement the policy and document the results.

   ● Response: We agree with this recommendation. Since the release of the policy, the
     Regional Bureau C-TIP advisers have played a key role in implementing the policy by
     providing technical assistance to their bureau and Mission colleagues. The DRG Center
     will work with C-TIP Regional Bureau C-TIP advisers to define in writing their specific
     roles and responsibilities in implementing the policy. DCHA will ask Regional Bureau
     leadership to ensure that adequate human resources are available to support these roles
     and responsibilities and incorporate them into staff work objectives. Additional senior
     level Agency support may be required to accomplish this task. Our goal is to complete
     this task by March 2014.

   ● In addition, the DRG Center’s C-TIP team met regularly with the Regional Bureau C-TIP
     advisers during the drafting of the policy and following the launch. In the future, we will
     meet monthly with Regional Bureau C-TIP advisers to strengthen their participation in
     implementing the policy and coordinating agency-wide C-TIP efforts. We will include
     gender advisers in these meetings to draw on their experience in implementing the
     Gender Policy. The first of these meetings happened in late October 2013.


                                                                                               21
                                                                                       Appendix II



Recommendation 6. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance determine the benefits of conducting briefings for mission directors and
program staff to obtain their support, increase their awareness, and emphasize critical aspects
of the policy and document the results., in close collaboration with bureau counter-trafficking in
persons advisers and contacts and gender advisers,

   ● Response: We agree with this recommendation. Senior-level Mission support is an
     important factor in effective implementation of the policy. While the DRG Center has
     sent written communications to the field (including Executive Messages, and emails from
     the former Deputy Administrator), the DRG Center, in coordination with the Regional
     Bureau C-TIP advisers, will consider more direct methods of engagement, including
     Mission conference calls and webinars. The team will also conduct direct outreach to a
     select, targeted number of Mission Directors for more in-depth briefing. The Steering
     Committee can be a useful tool to connect with senior mission leadership. As mentioned
     in recommendation 2, the team will remind senior Mission staff of the former Deputy
     Administrator’s request to brief their staff and will track progress toward this request.
     While this will continue to be an ongoing task, the team will engage with Mission
     Directors and staff in at least five countries by the end of March 2014.

Recommendation 7. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance determine its information needs, and in close collaboration with Policy,
Planning, and Learning, ask the Streamlining Governance Committee about the applicability of
the limit on data calls, and document the results.

   ● Response: We concur with this recommendation. Though the DRG Center is able to
     access useful information from the State Department’s mandatory data call, the team
     would greatly benefit from including additional fields in the spreadsheet to learn whether
     Missions are investing in, for example, integrated programs, surveys or evaluations, and
     whether they are coordinating with State Department or other USG colleagues in the
     field. By June 2014, we will make another request to the Streamlining Governance
     Committee to include additional fields in the data call to collect relevant information.

Recommendation 8. We recommend that, if the Streamlining Governance Committee does not
allow the data calls, the Center of Excellence on Democracy, Human Rights, and Governance
devise alternative methods for obtaining the information it needs from missions to monitor
implementation of the policy. This includes soliciting input from the Streamlining Governance
Committee on whether regional bureau advisers and mission coordinators can provide data, and
documenting the results.

   ● Response: We agree with this recommendation. As needed, the CTIP team will consider
     additional ways to capture program information to monitor implementation of the policy.
     This may include posting a shared Google spreadsheet on the internal website or other

                                                                                                22
                                                                                       Appendix II


       methods that can be updated by missions and regional advisers. The DRG Center staff
       will engage in a discussion with Regional Bureau C-TIP Advisers on alternative ways to
       capture this information at the monthly coordination meetings. This task can be
       completed by June 2014. It will be useful to get guidance from PPL to help fulfill this
       recommendation. We will solicit input from the Streamlining and Governance
       Committee on whether regional bureau advisers and Mission coordinators can provide
       data.

Recommendation 9. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance implement a documented process for identifying, funding, and
periodically reassessing critical trafficking in persons challenge countries and conflict and
crisis-affected countries.

   ● Response: We agree with this recommendation. The DRG Center will work with the
     Regional Bureau C-TIP advisers, the Missions and the State Department to identify a
     process to determine and periodically reassess priority countries, to include, but not
     limited to, C-TIP challenge and conflict- and crisis-affected countries. The DRG Center
     has extremely limited funds and will continue to prioritize funding both for these priority
     countries and to support pressing needs and gaps. When possible, the DRG Center and C-
     TIP Regional Bureau advisers will work with priority Missions to incorporate C-TIP into
     their CDCS and other documents to ensure that these Missions prioritize and fund C-TIP
     integrated and/or stand-alone programs. The DRG Center does not, however, have the
     ability to direct Mission funds. Our goal is to establish a process for determining,
     funding, and reassessing priority countries by April 2014.

Recommendation 10. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance establish and formalize its priorities and timeframes for implementing
the Counter-Trafficking in Persons Policy, while considering missions’ future activities and
needs.

Response: We concur with this recommendation. Shortly after the Policy’s release, the C-TIP
team created an implementation plan, which was completed in coordination with various
stakeholders, such as the Regional Bureau C-TIP Advisers and Steering Committee members.
Throughout the past year, as noted in the OIG report, priorities such as the Campus Challenge
and the Interagency Policy Committee took precedence over other items in the implementation
plan. In addition, limitations in human resources and authorities have delayed the
implementation process. The DRG Center has two FTEs assigned to the C-TIP portfolio and the
team has no ability to exercise authority over bureaus or Missions. C-TIP Advisers from
regional and functional bureaus and Mission C-TIP Coordinators are also critical to the effective
implementation of the policy, and the DRG Center will strengthen coordination with these
entities. The team will revisit the initial implementation plan and make adjustments to the
timeframes and actions as necessary to reflect planned and completed work. The DRG Center
will work to gain consensus on prioritization of tasks, and will construct a tool that shows
resource allocation for each assignment. This tool will be updated and regularly reviewed in

                                                                                                23
                                                                                      Appendix II


order to demonstrate capacity and trade-offs. As other priorities arise, the team will work to
adjust the plan appropriately. This assignment will be completed by the end of January 2014.

Recommendation 11. We recommend that the Center of Excellence on Democracy, Human
Rights, and Governance implement a mechanism to share information, tools, and best practices
with all missions.

   ● Response: We concur with this recommendation. The DRG Center, including the
     Learning Team, is discussing the best methods and sites for posting and sharing
     information for Missions, taking into consideration new Agency plans for the intranet.
     The C-TIP staff is participating in these conversations, and will ensure that C-TIP
     information is available in a manner consistent with the DRG Center’s communication
     plan. As mentioned above, the DRG Center will also increase the frequency of
     communication to Missions and others working on C-TIP through regular emails to the
     C-TIP Champions list serves. Our goal is to implement a mechanism to share
     information, tools, and best practices with Missions by October 2014.




                                                                                                 24
